     Department of Homeland Security




     Ottawa Illinois Elementary School District Should 

     Obtain Required Flood Insurance or FEMA Should 

    Disallow $14 Million in Public Assistance Grant Funds 





DD-13-03                                         January 2013

                                      OFFICE OF INSPECTOR GENERAL
                                          Department orHomc1and Security
                                         W""iog""', DC 2052 ! i ·.iWW oj. urn " -'l'


                                          January 4, 2013


MEMORANDUM FOR:                       Andrew Velasquez III




FROM:

                                      Office of Emergency

SUBJECT:                              Ottowa Illinois Elementary School District Should Obtain
                                      Required Flood Insurance or FEMA Should Disallow
                                      $14 Million in Public Assistance Grant Funds
                                      FEMA Disaster Number 18oo-DR-IL
                                      Audit Report Number 00-13-03

We audited Public Assistance grant funds awarded to Ottawa Elementary School District 11141
(Ottawa) in Ottawa, Illinois (Public Assistance Identification Number 099-U019S-OO). Our audit
objective was to determine whether Ottawa accounted for and expended Federal Emergency
Management Agency (FEMA) grant funds accordingto Federal regulations and FEMA guidelines.

The Illinois Emergency Management Agency {lEMA), a FEMA grantee, awarded Ottawa
$16.3 million for damages resulting from severe storms and flooding that occurred
September 13 through October S, 2008. The award provided 75 percent funding for four large
and four small projects. 1 The audit covered the period September 13, 2008, through May 16,
2012, the cutoff date of our audit, and included a review of three large prOjects and one small
project totaling $16.2 million, or 99 percent of the total award. As of our cutoff date, none of
the I~rge projects were closed.

We conducted this performance audit between May and October 2012 pursuant to the
In5pector General Act of 1978, as amended, and ~ccording to generally accepted government
auditing standards. Those standards require that we plan ~nd perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based upon our audit objective. We believe that the evidence obtained provides a reaso~able
basis for our findings and conclusions based upon our audit objectivE. We conducted this audit
according to the statutes, regulations, and FEMA policies and guidelines in effect at the time of
the disaster.




1 Feder.1 r~~ul.tion, in efr..ct att~ lime of the dis"'t~ r ..,~ th e "'rge proJ..ct thre,hold at $64,200.
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


We interviewed FEMA, IEMA, and Ottawa officials; reviewed judgmentally selected project
costs (generally based on dollar value); and performed other procedures considered necessary
to accomplish our objective. We did not assess the adequacy of Ottawa’s internal controls
applicable to grant activities because it was not necessary to accomplish our audit objective.
We did, however, gain an understanding of Ottawa’s method of accounting for disaster-related
costs and its procurement policies and procedures.


                                         BACKGROUND

Ottawa Elementary School District #141 operates five schools for approximately 2,100 students.
The Central School serves students in grades five and six and, at the time of the disaster, sat at
the confluence of the Fox and Illinois Rivers. In September 2008, the remnants of Hurricane Ike
dumped more than 10 inches of rain throughout the Midwest, causing the Illinois River to swell
to 8 feet above flood level. The heavy rains flooded the Central School’s first floor and crawl
space and ultimately resulted in its condemnation for health and safety concerns.


                                       RESULTS OF AUDIT

Ottawa accounted for FEMA grant funds on a project-by-project basis according to Federal
regulations and FEMA guidelines. However, Ottawa did not obtain flood insurance required as
a condition for receiving Federal disaster assistance for damages to its Central School.
Therefore, FEMA should disallow $13,958,266 as ineligible unless Ottawa obtains and maintains
the required amount of flood insurance coverage or obtains a waiver for the requirement.

Finding A: Flood Insurance

Ottawa did not obtain flood insurance required as a condition for receiving Federal disaster
assistance. As a result, Ottawa may not have adequate insurance coverage the next time
disaster strikes. Section 311(a)(1) of the RobertfT.fStaffordfDisasterfRelieffandfEmergencyfAct,
Public Law 93-288, 42 U.S.C. §5154, as amended (Stafford Act) requires recipients of disaster
assistance to obtain and maintain such types and extent of insurance “as may be reasonably
available, adequate, and necessary, to protect against future loss” to any property to be
“replaced, restored, repaired, or constructed with such assistance.” FEMA 322 Public
Assistance Guide, June 2007, p. 123, states, “As a condition for receiving Public Assistance for
permanent work, an applicant must obtain and maintain insurance to cover that facility for the
hazard that caused the damage. Such coverage must, at a minimum, be in the amount of the
estimated eligible damages for that structure prior to any reduction.”

Section 311 (a)(2) of the Stafford Act states that, “In making a determination with respect to
availability, adequacy, and necessity under paragraph (1), the President shall not require

www.oig.dhs.gov                             2                                    DD-13-03
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


greater types and extent of insurance than are certified to him as reasonable by the
appropriate State insurance commissioner responsible for regulation of such insurance. In
addition, FEMA 322 Public Assistance Guide, June 2007, p. 123, states, “An applicant is exempt
from this requirement for facilities for which, in the determination of the State insurance
commissioner, the type and/or extent of insurance being required by FEMA is not reasonable.”
However, Ottawa has not applied for or obtained such an exemption.

FEMA awarded Ottawa an improved project to construct a new Central School outside of the
floodplain. FEMA capped eligible Federal funding for the improved project at $13,958,266,
which represented the $15,947,786 estimated for eligible repairs reduced by $1,989,520 in
anticipated insurance proceeds. Therefore, Ottawa should have obtained flood insurance
coverage in the amount of $15,947,786 because the amount of insurance required is based on
the amount of the estimated eligible damages for the structure before any reduction for
insurance. However, as of August 2012, 8 months after the newly constructed Central School
opened, Ottawa had not obtained the required flood insurance.

Ottawa officials said they have obtained commercial property insurance for the replacement
value of the new school but have not obtained the required flood insurance coverage. On
September 10, 2010, IEMA informed Ottawa that it was required to obtain and maintain flood
insurance on the facility for at least the amount of assistance provided. In September 2012,
Ottawa officials said that the cost is prohibitive, and they questioned the need for flood-specific
insurance because the new school was built outside of the floodplain. Ottawa officials said that
they may obtain a waiver to the requirement. If Ottawa is unable to obtain the waiver or does
not obtain flood insurance in the amount of $15,947,786, FEMA should disallow the
$13,958,266 funded for the project as ineligible costs.

This finding occurred because IEMA, as the grantee, did not ensure that Ottawa obtained either
the required flood insurance or a waiver for the requirement. Federal regulations at 44 CFR
13.40(a) require the grantee to manage the day-to-day operations of subgrant-supported
activities. Further, according to 44 CFR 13.37(a)(2), the grantee is required to ensure that
subgrantees are aware of the requirements imposed on them by Federal regulations. IEMA
officials said that they did not believe it was their responsibility to ensure that insurance
requirements were met.

IEMA insists that it fulfilled its responsibility, as grantee, by informing Ottawa of the insurance
requirement and attempting to work with Ottawa to comply with the requirement. IEMA
believes that FEMA is ultimately responsible for ensuring compliance with the insurance
requirement because FEMA, not IEMA, has the authority to deobligate funding.

IEMA said that it has a small staff of only three people but it manages day-to-day operations
through regular interaction with the applicant, reporting, payment requests, and site visits.
IEMA said that it provides detailed information about insurance requirements and a Public

www.oig.dhs.gov                               3                                     DD-13-03
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Assistance Applicant Handbook, which specifically identifies the requirement to obtain and
maintain insurance on restored facilities.

In addition, IEMA said that it obtains Public Assistance Grant Agreements from its subgrantees
that include the insurance rule and a requirement that applicants possess the capability to
manage their grant. IEMA does not believe that it can manage applicants’ subgrants for them;
instead it believes that it is IEMA’s responsibility to provide applicants with extensive
information on program requirements and advise them as necessary in an effort to meet the
requirements. IEMA said that if the applicant fails to comply with a requirement, is not
responsive to IEMA’s advice, and continues to be noncompliant, then IEMA consults with FEMA
to determine the appropriate corrective action to be taken.

We disagree with IEMA’s position that it is not the grantee’s responsibility to ensure that
subgrantees meet Federal insurance requirements. According to 44 CFR 13.40(a), “Grantees
must monitor grant and subgrant supported activities to assure compliance [emphasis added]
with applicable Federal requirements . . . .” We agree that IEMA appears to have adequately
informed Ottawa of Federal insurance requirements; however, we do not agree that it is
FEMA’s responsibility to ensure that subgrantees comply with insurance requirements.
Although FEMA has the authority to obligate and deobligate Federal funds, all Public Assistance
funds flow through the grantee to the subgrantee. Therefore, the grantee controls Federal
funds paid to or recovered from its subgrantees.


                                     RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region V:

Recommendation #1: Disallow $13,958,266 ($10,468,699 Federal share) as ineligible unless
Ottawa either obtains and maintains flood insurance coverage in the amount of $15,947,786 or
obtains a waiver for the requirement (finding A).

Recommendation #2: Require IEMA to develop and implement procedures to ensure that
subgrantees comply with Federal requirements for insurance (finding A).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the results of our audit with Ottawa officials during our audit and included their
comments in this report, as appropriate. We also provided a draft report in advance to FEMA,
IEMA, and Ottawa officials and discussed it at exit conferences held on October 30, 2012.
FEMA, IEMA, and Ottawa officials generally agreed with our finding and recommendations.



www.oig.dhs.gov                             4                                   DD-13-03
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the InspectorfGeneralfAct,fwe are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination. Significant contributors to this report were Tonda Hadley,
Christopher Dodd, DeAnna Fox, and Brandon Landry.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                            5                                    DD-13-03
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


                                                                                    EXHIBIT A

                       Schedule of Audited and Questioned Costs 

                          September 13, 2008, to May 16, 2012 

                  Ottawa Elementary School District #141, Ottawa, Illinois 

                            FEMA Disaster Number 1800-DR-IL 


           Project     Gross Award       Insurance       Net Award     Questioned
           Number        Amount         Reductions        Amount         Costs
             608       $15,947,786      $(1,989,520)     $13,958,266   $13,958,266
             583         1,343,039           (32,307)      1,310,732             0
             850         1,176,310          (250,000)        926,310             0
             834             13,119                  0        13,119              0
         Totals        $18,480,254        $2,271,827     $16,208,427   $13,958,266




www.oig.dhs.gov                           6                                    DD-13-03
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                                                                      EXHIBIT B 


                                  Report Distribution List

                    Ottawa Elementary School District #141, Ottawa, Illinois 

                              FEMA Disaster Number 1800-DR-IL


Department of Homeland Security

Secretary
Chief Financial Officer
Under Secretary for Management
Audit Liaison, DHS
Acting Chief Privacy Officer

Federal Emergency Management Agency

Administrator
Chief of Staff
Acting Chief Financial Officer
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region V
Audit Liaison, FEMA (Job Code G-12-028)

Grantee

Manager, Mitigation and Infrastructure Section, Bureau of Disaster Assistance & Preparedness,
Illinois Emergency Management Agency

State

Illinois Auditor General

Subgrantee

Superintendent, Ottawa Elementary School District #141
Business Coordinator, Ottawa Elementary School District #141




www.oig.dhs.gov                             7                                    DD-13-03
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
